XL INDEX TO APPENDICES
APPENDIX A Decisions of 2nd Court of Appeal
APPENDIX B Decision of the Superior Court of California
APPENDIX C Decision of the Supreme Court of California
APPENDIX D the clerk at Supreme Court of California Kicked Petitioner Out their
Jurisdiction by holding the notice of wrong case number on the last day.
APPENDIX E Acceptance Letters from Harvard and Baylor med school and a support
Letter from UCLA medical school

PETITION FOR WRIT OF CERTIORARI

19
Bin Yang vs. The Medical Board of California

3

1

i.

?
<

?
;

J
I

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA

i

‘

!

5

SECOND APPELLATE DISTRICT

COURT OF APPEAL - SECOND DIST.

l
i
!

DIVISION TWO

FILED

f

}

Feb 21,2020
DANIEL P. POTTER, Clerk

BIN YANG,

B298733

QCarbone

Deputy Clerk

i

Petitioner,

(Super. Ct. No. BS175082)

V

v.
!
!

ORDER

THE SUPERIOR COURT OF
LOS ANGELES COUNTY,

?

!
i

Respondent;

i

!
!:

MEDICAL BOARD OF CALIFORNIA,
Real Party in Interest.

THE COURT:
The court has read and considered the petition for writ of mandate filed
i

June 27, 2019, and the additional exhibits submitted September 16, 2019,

i

and November 26,2019. The court has also reviewed the exhibits attached to

\
:

the Motion to Dismiss Appeal filed on May 29, 2019, in Yang v. Medical
Board of California, case No. B296832. The petition is denied.
1

LUI, P.J.

ASHMANN-GERST, J.

»

i
■!

i

■20

I

STADT, J.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT

COURT OF APPEAL - SECOND BIST.

DIVISION TWO

FILED
May 01,2020
DANIEL P. POTTER, Clerk

BIN YANG,

B298733

Petitioner,

Johanna Salazar

.(Sup_er._C_t._No.. BSl7o082)

v.

ORDER

THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent;
MEDICAL BOARD OF CALIFORNIA,
Real Party in Interest.

THE COURT:
The court has read and considered petitioner's second motion to
-reconsider, filed-April 21, 2020. The motion is denied.

LUI, P.J.

iSi<p'V-pT

ASHMANN-GERST, J.

2/

Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO

COURT QF£PPKL. SECOND DIST.

IFS&IEJd)
WAR 0 5 2020
g&SQ^jPQTTgfi

BIN YANG,

Clerk

B298733
Deputy Clerk

Petitioner,

(Super. Ct. No. BS175082)

v.

ORDER

THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent;
MEDICAL BOARD OF CALIFORNIA,
Real Party in Interest.

THE COURT:
The court is in receipt of a motion for reconsideration submitted by
petitioner on March 2, 2020. The motion is denied. This court's order
denying her petition for writ of mandate was final upon filing. (Cal. Rules of
Court, rule 8.490(b)(1).)

LUI, P.J.

ASHMANN-GERST, J.

a2

HOFFSTADT, J.

8nncFFC^ °F THE CLERK, Court of Appeal, Second Appellate District
300 South Spring Street, Room 2217, Los Angeles, CA 90013
(213) 830-7000
www.courts.ca.gov/2dca
Yang v. Superior Court of Los Angeles County,

Case No. B298733

YOUR DOCUMENT HAS BEEN RECEIVED FOR FILING. YOU ARE HEREBY NOTIFIED OF
NON-COMPLIANCE WITH THE CALIFORNIA RULES OF COURT RE:

sL

THE ATTACHED DOCUMENTS ARE BEING RETURNED TO YOU FOR THE FOLLOWING
REASON(S).

[ j

INADEQUATE OR LACK OF SERVICE ON: COUNSEL/CLIENT(S)/SUPERIOR COURT/SUPREME
COURT. PROOF OF SERVICE SHALL NAME EACH PARTY REPRESENTED BY EACH ATTORNEY
SERVED (CRC 8.25(a)). PROVIDE AMENDED PROOF OF SERVICE WITHIN 5 DAYS.

[ i

LACK OF ORIGINAL SIGNATURE ON: DOCUMENT/PROOF OF SERVICE/VERIFICATION.

[ 3

MOTION DOES NOT INCLUDE A PROPOSED ORDER (CRC Local Rule 2(g) & 4) PROVIDE
COMPLETED PROPOSED ORDER WITHIN 5 DAYS.

[ 3

BRIEF/PETITION DOES NOT INCLUDE A CERTIFICATE STATING WORD COUNT
(CRC 8.204(c)). PROVIDE CERTIFICATE WITHIN 5 DAYS

[ ]

ATTORNEY'S STATE BAR NUMBER DOES NOT APPEAR ON DOCUMENT.

[ 3

BRIEF/PETITION EXCEEDS WORD LIMIT, MUST SUBMIT REQUEST FOR PERMISSION TO
FILE.

[ 3

ELECTRONIC OR SCAN-READY COPY OF PETITION OR BRIEF NOT PROVIDED (CRC
Local Rule 7.)

I 3

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS NOT INCLUDED (CRC 8.208).

[ 3

DOCUMENT IS PREMATURE OR APPLICATION SHOULD BE MADE TO THE TRIAL COURT.

I 3

STIPULATION OR APPLICATION TO EXTEND TIME NOT SERVED ON CLIENT(S) (CRC 8.60(f)).

t ]

PETITION IS CIVIL IN NATURE & REQUIRES A $775.00 STATUTORY FILING FEE
(Gov. Code 68926).

[ 3

DOCUMENT IlEQUiRES A $390.00 RESPONSIVE FILING FEE (CRC 8.25(c)(2)(D) &

{/\

A SEARCH OF OUR RECORDS SHOWS THAT THERE ARE NO ACTIONS PENDING IN
OUR COURT REGARDING THIS MATTER.

)s/
REMARKS: The motion is returned, not filed. Pursuant to California Rules of Court, Rule 8 490(b) this
court s decision of February 21, 2020 was final the day it was filed. This court no longer has jurisdiction to
consider your motion.
DATE: May 15, 2020
cc: File
*CRC - California Rules of Court

2A

1

FILED

2

Superior Coun of California
CniimvnflAc Aneeles

3

rn 13 2019

4

Sherri K. '-‘toer, txccuu vc Ufficer/Cle;

5

By.
Jennifer De Luna-

6

Deput

7
8

IN THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

FOR THE COUNTY OF LOS ANGELES

10
11
12
BIN YANG,

Case No. BS175082

13
Petitioner and Plaintiff,

[MWroflM] JUDGMENT

14
v.
15
16

Judge: Hon. James C. Chalfant
Action Filed: September 12, 2018

MEDICAL BOARD OF CALIFORNIA,

17
Respondent and Defendant.
18
19
On February 14,2019, Petitioner Bin Yang and Respondent and Defendant Medical Board

20
21

of California (Respondent and Defendant), represented by Xavier Becerra, Attorney General of

22

the State of California, Peggie Bradford Tarwater, Deputy Attorney General, appeared before the

23

Honorable James C. Chalfant, in Department 85 of this Court for an Order to Show Cause Re:

24

Dismissal After Demurrer is Sustained Without Leave to Amend.

25
26

Having heard oral argument and considered the ruling sustaining the Demurrer of
Respondent and Defendant without leave to amend, this Court hereby orders:
1.

27
28

The case is dismissed, pursuant to Code of Civil Procedure, section 581, subdivision

my

1

aJP-

[SrsfMiorij Judgment

I
2
3
4

2.

A copy of the Notice of Ruling on Demurrer to Petition for Writ of Mandate is

attached hereto as Exhibit A.
3.

A copy this Court’s minute order dismissing the Petition for Writ of Mandate is

attached hereto as Exhibit B.

5
6

0
Dated:

7
8
HONORABLE JAMES CHALFANT
JUDGE OF THE SUPERIOR COURT

9
10
II

Submitted by:

12

Xavier Becerra
Attorney General of California
Robert McKim Bell
Supervising Deputy Attorney General
Peggie Bradford
Deputy Attorney General
State Bar No. 169127
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213)269-6448
Fax: (213) 897-9395

13
14
15
16
17

18

Attorneys for Respondent
Medical Board of California

19
20
21
22
23
24
25
26
27
28
2

[Rnpamd] Judgment
(BS175082)

I,

. A

Bin Yang v. Medical Board of California, et
aL BS175082

Tentative decision on demurrer: sustained
without leave to amend

Respondent Medical Board of California (“Board”) demurs to the Petition filed by
Petitioner Bin Yang (“Yang”). The court has read and considered the moving papers and
opposition1, and reply,2 and renders the following tentative decision.
A. Statement of the Case
1. Petition
Petitioner Yang commenced this proceeding on September 12,2018. The verified Petition
for Writ of Mandate alleges in pertinent as follows.
Yang is a Chinese national. Pet. pp. 2-3. In China, Yang attended a top medical school.
Pet. p.10. In 1994, Yang immigrated to the United States. Pet. p.3. In 1996, Yang obtained a
California nursing license. Ibid.
In 1997, Yang was rear-ended by an 18-wheeler in Amarillo, Texas and suffered a
traumatic brain injury. Pet. p.4. She could not speak for days and had to relearn English. Ibid.
In 2002, Yang received a California Postgraduate Training Authorization Letter which she
renewed every year. Pet. p.5.
In March 2005, Yang flew from Houston, Texas to Lubbock, Texas. Pet. p.5. After Yang
asked the flight attendant for a blanket three times but received no response, Yang “pushed” the
attendant’s right forearm for attention. Ibid. The attendant claimed that Yang punched her
stomach and made her fall into a cabinet. Ibid. Yang plead guilty to the criminal charges that
ensued. Pet. pp. 5-6.
An administrative hearing was held concerning her Postgraduate Training Authorization
Letter. Pet. p.3. The Board put an “expert” on the stand who made up evidence. Pet. p.3. The
expert was not aware what medical course and internships that Business and Professions Code
sections 2085 through 2089 require and could not tell the difference between medicine and nursing
internships. Pet. p.7. An administrative law judge (“ALJ”) issued an order revoking Yang’s
Postgraduate Training Authorization Letter even though Yang had not violated Business and
Professions Code sections 480, 2036, and 2305. Ibid. The Board adopted the ALJ’s decision to
deny Yang’s training permit since her education was “nursing” and because she had not
rehabilitated from the airplane incident. Ibid.
Yang seeks a writ of mandate directing the Board to (1) renew her postgraduate training
authorization letter and remove false online information about her, (2) pay for her career loss and
Yang attaches an unauthenticated exhibit (a CT Scan) to her opposition brief. The court
did not read or consider this exhibit. In evaluating a demurrer, the court only considers the
petition’s allegations, the petition’s exhibits, and judicially noticed materials. Hoffman v
Smithwoods RV Park. LLC. (2009) 179 Cal.App.4th 390,400.
2 The Board argues that while Yang’s opposition was timely filed on January 14, 2019, it
was served by mail and not in a manner not reasonably calculated to ensure delivery the next day.
CCP § 1005(b). Opp. at 2. As the Board was able to file a reply, the court has exercised its
discretion to consider Yang’s opposition. However, the court did not read or consider Yang’s
unauthorized “Response to Reply” filed on January 23, 2019.
1

<l6

suffering, and (3) evaluate its staff for human rights violations and defamation. See Pet. p.9. Yang
notes that the revocation of her Postgraduate Training Authorization Letter was premised on
altered facts and personal interests. Pet. p.13.
B. Applicable Law
Demurrers are permitted in administrative mandate proceedinas. CCP§§ 1108 1109 A
demurrer tests the legal sufficiency of the pleading alone and will be sustained where the pleading
is defective on its face.
6
Where pleadings are defective, a party may raise the defect by way of a demuner or motion
to strike or by motion for judgment on the pleadings. CCP §430.30(a); Coyne v. Krempek (1950)
36 Cal.2d 257. The party against whom a complaint or cross-complaint has been filed may object
by demurrer or answer to the pleading. CCP §430.10. A demurrer is timely filed within the 30day period after service of the complaint. CCP §430.40; Skrbina v. Fleming Comnam>c (19961
45 Cal.App.4th 1353, 1364.
“
“
------ *
;
A demurrer may be asserted on any one or more of the following grounds: (a) The court
has no jurisdiction of the subject of the cause of action alleged in the pleading; (b) The person who
filed the pleading does not have legal capacity to sue; (c) There is another action pending between
the same parties on the same cause of action; (d) There is a defect or misjoinder of parties; (e) The
pleading does not state facts sufficient to constitute a cause of action; (if) The pleading is uncertain
(“uncertain” includes ambiguous and unintelligible); (g) In an action founded upon* contract, it
cannot be ascertained from the pleading whether the contract is written, is oral, or is implied by
conduct; (h) No certificate was filed as required by CCP §411.35 or (i) by §411.36. CCP §430.10.
Accordingly, a demurrer tests the sufficiency of a pleading, and the grounds for a demurrer must
appear on the face of the pleading or from judicially noticeable matters. CCP §430 30(aV Blank
v. Kirwan. (1985) 39 Cal.3d 311, 318.
’
The face of the pleading includes attachments and incorporations by reference (Frantz v.
Blackwell, (1987) 189 Cal.App.3d 91,94); it does not include inadmissible hearsay. Daw Sham
(1975) 50 Cal.App.3d 904, 914.
------ *
The sole issue on demurrer for failure to state a cause of action is whether the facts pleaded,
if true, would entitle the plaintiff to relief. Garcetti v. Superior Court. (1996) 49 Cal.App.4th 1533*
1547; Limandri v. Judkins. (1997) 52 Cal.App.4th 326, 339. The question of plaintiffs ability to
prove the allegations of the complaint or the possible difficulty in making such proof does not
concern the reviewing court. Quelimane Co. v, Stewart Title Guaranty Co.. (1998) 19 Cal.4th 26,
47. The ultimate facts alleged in the complaint must be deemed true, as well as all facts that may
be implied or inferred from those expressly alleged. Marshall v. Gibson. Dunn & Crutcher. (1995)
37 Cal.App.4th 1397, 1403. Nevertheless, this rule does not apply to allegations expressing mere
conclusions of law, or allegations contradicted by the exhibits to the complaint or by matters of
which judicial notice may be taken. Vance v. Villa Park Mobilehome Estates (1995) 36
Cal.App.4th 698, 709.
For all demurrers filed after January 1, 2016, the demurring party must meet and confer in
person or by telephone with the party who filed the pleading for the- purpose of determining
whether an agreement can be reached that would resolve the objections to be raised in the
demuner. CCP §430.41(a). As part of the meet and confer process, the demurring party must
identify all of the specific causes of action that it believes are subject to demuner and provide legal
support for the claimed deficiencies. Id. The party who filed the pleading must in turn provide
legal support for its position that the pleading is legally sufficient or, in the alternative, how the
2

^7

StSSSS.TSS?15SS

requirement has been met. CCP §430.41(a)(3).

C. Analysis3
Respondent Board demurs to the Petition on

r.c„ s.ffiAmo

. « „f JOl„ bii

corner

1"

ST SJ'flif”

Government Code4 section 1 1523 states that a petition for writ of mandate challenging an
admmstrati.e decsion must be filed “within 30 days after the day on which reconsideration can
ordered. The agency s power to order a reconsideration “shall expire 30 days after the delivery
or mtulrng Of a decision to a respondent, or on the date set by the agency itself as the effective date
ot the decision if that date occurs prior to the expiration of the 30-day period.” 611521 Under
effert" ,u21’i?he earliest date uP°n vvhich an administrative agency’s decision can become
effective, thereby commencing the limitations period of section 11523, is the date on which the
4™ 15 " °r deIivered” Kgonsv. Placer Hills Union Sch. Pis... (1976) 61 Cal“d
.°n Sep,tem^er 14> 2011, the Board made a decision to deny Yang’s medical license and
comPlete her medical license training and continue rehabilitation. RJN Ex A Althou»h
the judicially noticed portion of Exhibit A does not show when the Board’s decision was maile°d
ang s Petition admits that the decision was delivered to her address on October 28 2011 and'
ntU™,rerdnby icr °? Dedember •’ 2011 ■ The Board’s decision was effective on November
. ’
*
^x* A’ P^* ^1S was
last day on which reconsideration could be ordered
115f 1(a)- Any mandamus petition was required to be filed by December 18, 2011 (absent
inapplicable extension for timely ordering the administrative record). §11523,
Petitioner Yang filed a timely Sacramento Petition. RJN Ex. B. After five years passed,
the Sacramento Petition was dismissed on August 23, 2017 after an order to show cause hearing.
RJN Ex. C. The instant Petition was filed on September 12, 2018, almost seven years too late.
In opposition, Yang attempts to explain her delay and argues that she did not know that her
lawyer, Steven L. Simas, filed the Sacramento Petition until this demurrer. Opp. at 2. Yang
explains that she was in China from 2009 to 2013 and entered into a contract with Mr. Simas over
the telephone. Ibid- Mr. Simas made excuses to steal Yang’s money and never explained what a
mandamus writ was. Yang did not find out she could seek mandamus against the Board until she
ptat

In its memorandum of points and authorities, the Board requests judicial notice of (1) the
Board’s October II, 2011 decision (Ex. A), (2) Yang’s 2011 Petition in Sacramento County
Superior Court (No. 34-2011-80001019) (“Sacramento Petition’*) (Ex. B), and (3) an Order of
Dismissal for the Sacramento Petition (Ex. C). The Board’s request violates the requirement that
requests for judicial notice be made in a separate document. CRC 3.1113(1). The court exercises
its discretion to consider the requests despite this error.
The Board’s request is granted as to Exhibits B and C. Evid. Code §452(d). The Board’s
request is granted in part and denied in pan as to Exhibit A. Evid. Code §452(c). Specifically, the
court takes judicial notice of the Board’s decision but declines to take judicial notice of the attached
declaration of service by certified and first class mail.
4 All further statutory references are to the Government Code unless otherwise stated.
3

23

learned she could file a mandamus action against the Nursing Board, Opp. at 3.
ang s reasons for not pursuing the Sacramento Case are not particularly oermane tn the
passage of the statute of limitations.5 The fact remains that her current Petition is untimeIv hv
almost seven years. Yang attempts to excuse her untimely filing by arguing that she is a lavman
and she did not understand the law. Opp. at 3. This fact Is irrelevant. nfZttolSZ
° T’'eg Hd t0 ? party’s Sta,US 0r knowl«lge. and the court is obligated to “
. person just like it does a lawyer. See Bistawros v. Greenhero n o«7) 189 Cal.App.3d 189 193
rrp fang,TeAthat the StatUte °f Iimitations is extended by Penal Code section 1054 7 or
CP section oil. Opp. at u-4. Neither applies. Penal Code section 1054.7 concerns the right to
d.scmery m a criminal case and has nothing to do with the statute of limitations for mandfmus
CCP section u51 tolls the applicable statute of limitations for a cause of action against a defendant
who hnS Hefr°Ut, rtale ring ,he limitati0ns peri0d- This Provision exists to benefit plaimfffl
nnth-h ? dlfficU’ty f‘ndln§’ serving, and prosecuting absent defendants. CCP sectional has
nothing to do with a plaintiff, such as Yang, who has been out of the state in China for a period of
> ears^ Yang could have always timely prosecuted her claim against the Board, and she did timelv
file the Sacramento Petition. The fact that she did not pursue it while she was in China is not l
matter within the scope of CCP section 35 fs protections.
is not a
Yang’s claim against the Board is time-barred.6
D. Conclusion

The Board’s demurrer to the Petition is sustained without leave to amend An OSC redismissal is set for February 14, 2019 at 9:30 a.m.

5 The court need not decide whether the dismissal of the Sacramento Petition after a five>ear delay was on the merits such that the doctrine of res judicata would bar Yang’s Petition.
6 The court need not address the Board’s claim of uncertainty.
4

/

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SACRAMENTO

DATE/TIME
JUDGE
REPORTER

: FEBRUARY 7, 2019
: RICHARD K. SUEYOSH!
: N/A

BIN YANG,
Petitioner,

DEPT. NO
CLERK
BAILIFF

: 28
: E. GONZALEZ
: N/A

CASE NO.: 34-2011*80001019

VS.
MEDICAL BOARD OF CALIFORNA, Division of
Licensing,
Respondent.
NATURE OF PROCEEDINGS:

ORDER RE: MOTION TO REINSTATE PETITION

On February 1, 2019, Petitioner filed a "Motion to Reinstate Petition” under the abovereferenced case number. This matter was dismissed on August 23, 2017 pursuant to Code of Civil
Procedure section 583.360 for failure to bring the matter to trial within five years. Such dismissal was
mandatory. Accordingly, the Court no longer has jurisdiction over the petition, and Petitioner has not
identified within her motion any statutory authority that provides the Court with jurisdiction to consider
a motion to reinstate” the petition. Accordingly, the Court will not set the matter for hearing and will
not issue any further orders on this motion.

Date: February 7, 2019
Hon. Richard K. Sueyoshi
Judge of the Superior Court of the
State of California, County of Sacramento

Certificate of Service by Mailing attached.

DEPT
DATE
CASE NO.
CASE TITLE

: 28
: February 7, 2019
: 34-2011-80001019
: Bin Yang vs. Medical Board of
California, Division of Licensing

Superior Court of California,
County of Sacramento

BY:

E. GONZALEZ.
Deputy Clerk

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SACRAMENTO

DATE/TIME
JUDGE
REPORTER

: MARCH 5, 2019
: RICHARD K. SUEYOSHI
: N/A

DEPT. NO
CLERK
BAILIFF

BIN YANG,
Petitioner,

: 28
E. GONZALEZ
: N/A

CASE NO.: 34-2011-80001019

VS.
MEDICAL BOARD OF CALIFORNA, Division of
Licensing,

Respondent
NATURE OF PROCEEDINGS:

ORDER RE: REQUEST TO RECONSIDER MOTION TO
REINSTATE PETITION

thk
ruarX 7-.2°19Jh|s Court issued its Order re: Motion to Reinstate Petition. Since then,
this Court has received a document, apparently from Petitioner bearing'-the title, “Request to ’
Reconsider Motion to Reinstate Petition." The Court refers the parties back to its Febuary 7 2019

noton^ThMiu^^on^h'^p^t^^p^™0n AU9USt 23’ 2°17’ a"d ^ C°Urt
\•

Date: March 5, 2019

^^Ron. Richard K. Sueyoshi
Judge of the Superior Court of the
State of California, County of Sacramento

Certificate of Service by Mailing attached.

DEPT
DATE
CASE NO.
CASE TITLE

. 28
: March 5, 2019
: 34-2011-80001019
: Bin Yang vs. Medical Board of
California, Division of Licensing

Superior Court of California,
County of Sacramento

BY:

?/

E. GONZALEZ.
Deputy Clerk

Jsmpreme CSnurt ai Oluixiaxmn
JORGE E. NAVARRETE

I-ARC WARREN IUMLDINC

CIJJItK AND EXECUTIVE Ol'TIOEK
or THE SUPREME COURT

A5 0 McALLISTER STREET
SAN ERANC1SCO. CA <34102
(415) 805-7000

April 22, 2021
Bin Yang
P.O. Box 14
Beverly Hills, California 90213
Re:

S268293 — Yang v. S.C. (Medical Board of California)

Dear Ms. Yang:
The court has considered your application for relief from default and petition for review.
Your application for relief from default has been denied. (Cal. Rules of Court, rule 8.60(d).)
The court has directed that the petition for review received via True-Filing be returned to
you. We are returning herewith the original of the petition for review.
Very truly yours,
JORGE E. NAVARRETE
Clerk and
Executive Officer of the Supreme Court

CuJ*.T
By: C.Wong, Deputy Clerk
cc:

Court of Appeal, Second Appellate District, Division Two
Rec.

12

Supreme ffinurt nf (ttaltfnrnta
JORGE l-:. NAVARRKTK

KARL WAKRKN- lU'n.DINO

cr<t:uk and cxiuutivk omei-R

.’.itl M cA I.I.IST i; R STRKKT

01- rill- SIPUKMI-. COl'KT

•SAN' I-'KAN’CISCO, CA 9410’
HIS) 865-7000

August 25, 2020

Bin Yang
P.O. Box 14
Beverly Hills, CA 90213
Re: S263404 — Bin Yang v. Superior Court of Los Angeles County (Medical Board of California)
Dear Bin Yang:

Returned unfiled is your “Motion to Reconsider” received thru TrueFiling in the abovecaptioned case. The order transferring the petition for writ of mandate to the Court of Appeal
Second Appellate District was filed on July 29, 2020, and the matter is now closed.

Very truly yours,
JORGE E. NAVARRETE
Clpfk and
Executive Offifcdr of the Supreme Court

By:

ioc,

Dep

Clerk

Enclosure

)
j

??

D

1

1

4
3

;
it

5
<

\

\

■\

1
l

f

ro
t—i
<N
O
cn
<

J

&
%
*\

cH

DO

\

X

u

•H

to

m

a
o

•“

X

c o >■
CD CD
>- i <D
c O >
ai
£ a. cq

s

I

•r*

o

O
irJ

y

•

v4

N

* O

*

<n

c-'

s

Jlr
•;
i
>

.2
c

£

fNI

o

21*
2 to 5
?

3 a3 o'

SI *
<y < c

4

■ ii

£ £ g
«; 2 £

a. o c
o m to
to ro to

i

|aS::j3B::.5S.:

SPAULDING

Harvard
Medical
School

Department of Physical Medicine & Rehabilit
Tel: 617-573-2770
Fax:617-573-2769

REHABILITATION
HOSPITAL

www.hms.harvard.edu/hms/

•NETWORK

April 20, 2006

Bin Yang, MD
3940 S. Sepulveda Blvd. MOW
Culver City, CA 90230
Dear Dr. Bin Yang:
This letter serves as notification of your official appointment to the Harvard Medical School/Spaulding
Rehabilitation Hospital Residency Program in Physical Medicine and Rehabilitation. You will begin the program
on July 1, 2006 [or such date as agreed upon with the Program Director] in your second physician graduate year
(PGY).
During the time before you begin the residency, your responsibilities include, but are not limited to:
•
•
•

Completing an accredited transitional year OR an internship year which meets the criteria of the
American Board of Physical Medicine and Rehabilitation
Obtaining a valid Massachusetts License to Practice Medicine (limited)
Obtaining institutional privileges at Spaulding Rehabilitation Hospital though the credentialing process

You will receive guidance from the program as to how to filfill the licensing and credentialing requirements.
Your signature below indicates that you 1) understand your legal commitment, and 2) you will comply with
fulfilling all legal and institutional requirements for beginning this residency program.
Please sign and return this letter to Katrina Mintz, Administrative Assistant for Academes, in the envelope
provided. Please feel free to contact her at (617) 573-2758 or kmintz@partners.org if you any questions,
Sincerely,

David T. Burke, M.D., M.A.
Director, Residency Training Program
Medical Director, Brain Injury
Associate Professor, Harvard Medical School
My signature below certifies that I understand my NRMP commitment to this residency program, and I will fulfill
all legal and institutional requirements for beginning this residency program.

7/sS m

+■

Accepted Applicant’s Signature

u

i25 Nashua Street ♦ Boston, Massachusetts 021 M - I 198 • www.spauldingrehab.org

May-17-OS 06:30A

P.Ol

BCM

Baylor College ©/Medicine

May 12,2005 V

OFFICE OF GRAM1ATK
MKDICAI. KDUCATION

Bill Yang, M.D.
533 Oak Brook Dr.
Martinez* GA 30907

One Baylor Warn
Suite 0220
Houston, Tews 77030-,'Ul 1
7B-'7<>8 46:0
713-708-4334 FAX

Dear Doctor Yang: '
Wo are pleased to inform you that your application for residency in the Department of Neurology at the
Baylor College of Medicine Affiliated Hospitals has been approved for the period July 1* 2005 through
.Tunc 30, 2006,
This appointment will be as a first-year resident, at a stipend level of at least 11 ($40,425). This
appointment is contingent upon appropriate full registration with the Texas Board of Medical Examiners
and completion of all required prerequisites. If you are an international medical graduate or a non­
citizen of the United States, you must also provide evidence of the appropriate immigration status for
clinical training under Baylor College of Medicine sponsorship. Please contact our International
Services Office (713/798-4604) for further information.
Please sign below and return if you wish to accept this appointment. Failure to return this signed
document within 30 days of this letter may result in withdrawal of the offer at the discretion of Baylor
College of Medicine.
We look forward to having you train with us, and welcome you to Baylor College of Medicine.
Sincerety yours,
Paul E. Schulz, M.D.
Program Director
Neurology Residency Program
PES/slr
I accept the appointment outlined above and in the addendum to this letter, and I agree to conform to all
rules and regulations of Baylor College of Medicine and of the affiliated institutions to which 1 am
assigned and to discharge the duties of resident as determined jointly by the affiliated hospitals and the
respective directors of training programs at Baylor College of Medicine, I understand that my
appointment is contingent upon registration with the Texas State Board of Medical Examiners,
successful credentialing by Baylor College of Medicine, and completion of all required prerequisites.
My signature also indicates receipt of the Baylor College of Medicine Compact Between Teachers and
Learners ofMedicine.
Signature:
Date;
(A copy of this letter with both signatures will be returned to you to complete your files and to
acknowledge our receipt of your acceptance).
PRIMARY WHUAItU HACmNlYilTKPrrAlS
Hr. t ukr\ tjwtofMl Hfnpir.nl

leu* Children-! Hctpitpl

Plililic ln*lilu)‘uifi\
Michael t. Orflirkey
Hnrm County H0141it.1l UiitnU
Ren Ta.ih Gnnpral 1 lns|>i:il
YAMedical Cenwf
Quentin Mkhc Cnmfn1mtly.H04jil.il

Thr MMWiin>p:i Clin it'
Thr Mrthmim 1 Impiml

The Institute for Krrlwb'lrUlrOft
.rnd E«*WJItli

Commuuiiy Health Center*

16

WOtfC X Of X

Ramirez, Roger

n-

Ramirez, Roger

Prop:
Sent:

Tuesday, May 24, 2005 12:46 PM

To:

Schulz, Paul E; 1uckybwy@hotmail.com

Cc:

Adams, Lori A

Subject:

Credential

Importance: High

You are herby notified that THE FOLLOWING APPLICANTS has been credentialed by Baylor College of
Medicine. As a result of our investigation, we have determined the file as a routine and no further
documents are required to continue the TSBME Credentialing Process:
BIN YANG
Our records indicate the physician has no registration with the TSBME and is pending a new permit for the
program of NEUROLOGY. Upon receiving the new permit, the house officer is eligible to begin training
on 07/01 /2005, if there are no additional requirements preventing delay.

Roger Ramirez
Graduate Medical Education
Bayior College of Medicine
One Baylor Plaza, 022D
Houston, TX 77030
(phone) 713-798-5313
(fax) 713-798-4334

7
S/24/2005

UNIVERSITY OF CALIFORNIA, LOS ANGELES
BERKELEY • DAVIS • IRVINE • LOS ANCELES • MERCED • RIVERSIDE • SAN DIECO • SAN FRANCISCO

UCLA
SANTA BARBARA • SANTA CRUZ

OFFICE OF THE DEAN
DAVID GEFFEN SCHOOL OF MEDICINE AT UCLA
10833 LE CONTE AVENUE
12-138 CENTER FOR THE HEALTH SCIENCES
BOX 951722
LOS ANGELES, CALIFORNIA 90095-1722

April 4, 2008

i

Medical Board of California
2005 Evergreen Street, Suite 1200
Sacramento, CA 95815

;

To Whom It May Concern:

i

I have reviewed copies of the transcript, certified clerkship reports, and original diploma
for Bin Yang (ATS #136968). It appears that she has completed four years of study
equivalent to a Bachelor of Medicine degree. What is unique about her program is the
inclusion of nursing coursework, both as separate courses (Basic Nursing and Health
Administration) and as an integrated part of medical clerkships in the medical specialties.
Understanding patient care from both a medical and nursing perspective could be
extremely helpful. Few U.S. medical schools have the opportunity for this unique
training, due to separation between the two specialties.
A report entitled “Current Perspectives on Medical Education in China” (Medical
Education. 40:940-9, 2006) reported of the 180 medical schools in China as of 2006, 39
offer three-year programs with the majority offering programs of five years or more. It
seems entirely feasible to complete both a medical degree and nursing degree in one fouryear, overly-intense program.
Sincerely,

LuAnn Wilkerson, Ed.D.
Senior Associate Dean for Medical Education
Director, Center for Educational Development and Research
DAVID GEFFEN SCHOOL OF MEDICINE AT UCLA
12-138 Center for the Health Sciences
Box 951722
Los Angeles. California 90095-1722

LuAnn Wilkerson, Ed.D.
Senior Associate Dean for Medical Education
(310) 794-7018 Phone
(310) 206-5046 Fax
E-mail: lwilkerson@mednet.ucla.edu

It

